           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        AUDIT OF THE
       WILKES-BARRE
 FOLDER SERVICING OPERATION

September 2003   A-04-03-13040




    AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   September 23, 2003

To:         The Commissioner

From:       Inspector General

Subject: Audit of the Wilkes-Barre Folder Servicing Operation (A-04-03-13040)



        OBJECTIVE

        Our objective was to determine the accuracy and condition of the physical and
        computerized folder inventory at the Wilkes-Barre Folder Servicing Operation (WBFSO).

        BACKGROUND
        The Social Security Administration (SSA) stores all Title XVI folders at WBFSO, about
        4.6 million folders. SSA hired a contractor to file, retrieve, and maintain case folders at
        WBFSO and update the electronic inventory systems. From September 2000 through
        February 2003, SSA paid the WBFSO contractor over $5.5 million for these services.
        Additionally, SSA paid the contractor over $1.3 million to perform the Master File
        Validation (MFV)1 project from March 2001 to April 2002.

        SSA and Disability Determination Services’ staff routinely request Title XVI case folders
        from WBFSO to facilitate claims decisions. WBFSO personnel document the
        movement of folders in and out of the facility by recording the action in the Folder
        Control System (FCS). The FCS interfaces with SSA’s Supplemental Security Income
        Control System (SSICS), and actions recorded in FCS are uploaded to SSICS each
        night. SSICS tracks Title XVI folder movement nationally and is the mechanism for SSA
        components to request folders.

        1
          MFV was a one-time project where the contractor traced folders listed in SSICS to its physical location.
        Inventory errors identified during the MFV were to be corrected by the contractor. We did not review the
        corrective actions taken by the contractor on the results of the MFV.
Page 2 – The Commissioner

SCOPE AND METHODOLOGY
Our audit assessed the accuracy, reliability and physical condition of the case folder
inventories maintained at WBFSO. In conducting our audit we:

•   Interviewed SSA and WBFSO contractor personnel to obtain an understanding of
    WBFSO operations.

•   Evaluated the existing controls, policies, and procedures related to folder processing
    at WBFSO.

•   Performed tests of the electronic and physical inventories. See Appendix A for a
    detailed description of our inventory tests.

•   Evaluated the overall physical condition of 300 case folders to determine whether
    folders were torn or mutilated, properly labeled, filed in sequence, or had loose
    contents.

•   Estimated the results of our electronic and physical inventory tests to the population
    of Title XVI case folders. See Appendix A for a detailed description of our sampling
    methodology.

Generally, we determined the computer-generated data used for our audit were
sufficiently reliable to meet our audit objectives. This assessment was based on tests
we performed on the completeness, accuracy, and validity of the FCS and SSICS
inventory systems. The issues we identified with the completeness and accuracy of the
data discussed in the results of review section of this report. The entity audited was the
Center for Material Resources and Support within the Office of Central Operations. We
performed our audit in Wilkes-Barre, Pennsylvania, and Atlanta, Georgia, from
November 2002 to February 2003. We conducted our audit in accordance with
generally accepted government auditing standards.

RESULTS OF REVIEW
Our audit identified folders that were missing from WBFSO, and folders that either were
not recorded or improperly recorded in the SSICS electronic inventory systems. Based
on the errors identified, we estimate that, of the 4.6 million folders at WBFSO,
approximately

•   77,000 folders recorded in SSICS as stored at WBFSO would not be found at the
    facility and

•   108,000 folders were not properly recorded in SSICS as stored at WBFSO, when in
    fact the folders were located at WBFSO.
Page 3 - The Commissioner

In addition to the inventory accountability errors, we estimate that approximately
92,000 folders were stored at WBFSO that should have been destroyed. The additional
storage cost for these folders is estimated at about $13,400, annually. We also
estimate that over 1.6 million folders had loose (unsecured) contents. Unsecured
documents within a folder are susceptible to being misfiled or lost.

Finally, we found that individual post-entitlement (PE) documents,2 received daily from
SSA components, were not initially filed with the recipient’s case folder already stored at
WBFSO. In fact, PE documents were sorted, inventoried, packaged, and then shipped
to the Federal Records Center (FRC) in Philadelphia, Pennsylvania, for storage. We
believe this process is inefficient because it results in unnecessary storage and shipping
costs and delays the delivery of case folders to the requester.

FOLDERS COULD NOT BE LOCATED WITHIN WBFSO

Our test of the electronic inventory identified 5 of 300 folders we selected from the
SSICS inventory could not be located at WBFSO. For the five folders, SSICS reported
the following information.

•   Four folders were sent to WBFSO from SSA components.3 SSICS reported that
    three folders were sent to WBFSO on or before August 17, 2000, and the fourth was
    sent on November 18, 2002. Based on these sent dates, WBFSO should have
    received the folders before our audit period.4

•   WBFSO received one folder in January 1976. Although SSICS reported that
    WBFSO had received this folder, the folder could not be located.

We could not determine whether WBFSO received the folders because SSA did not
track folders through the shipping process. Since most folders are shipped via the U.S.
Postal Service, without shipment tracking records, we could not determine the folders’
final location. We estimate that approximately 77,000 of the 4.6 million folders would
not be found at WBFSO. When folders cannot be located, claims decisions may be
delayed, and SSA could have to expend scarce resources to locate or reconstruct
folders.

We believe SSA should consider the use of a shipping service that tracks folders from
the point of origin to the destination, such as Federal Express, United Parcel Service, or
the U.S. Postal Services’ Express Mail. A shipping services tracking system would

2
 PE documents include all documents received after an initial claims decision that may affect a benefit
payment. Examples of PE documents include records of changes of address or income and resources.
3
  When an SSA component updates SSICS to show a folder has been sent to WBFSO, the folder’s
location becomes WBFSO with a “cleared” status while the folder is in transit.
4
 As of July 7, 2003, SSICS reported that two of the four folders had not been received by the WBFSO
and the remaining two folders had become eligible for destruction.
Page 4 - The Commissioner

allow the Agency to monitor the location of case folders and make the WBFSO
contractor more accountable for folders that are not properly updated in the inventory
systems upon receipt at WBFSO. Also, opening the folder shipment workload to the
commercial marketplace for competition is in accordance with the President’s
Management Agenda, which encourages the use of competitive sourcing.5

FOLDERS WERE NOT PROPERLY RECORDED IN THE
ELECTRONIC INVENTORY SYSTEM

To test the physical inventory, we selected 300 folders physically located at WBFSO
and determined whether the case folder was properly recorded in both the FCS and
SSICS inventory. We identified folders that were stored at WBFSO, but SSICS did not
report the folders as part of the WBFSO folder inventory. We also found folders at
WBFSO that were recorded in SSICS as destroyed but, these folders were still stored at
the facility.

•   Seven folders were found at WBFSO, but were recorded in SSICS as stored at a
    location other than WBFSO, lost, or inactive. Projecting this error, we estimate that
    approximately 108,000 folders were located at WBFSO but were not recorded in
    SSICS as being stored at WBFSO.

       ¾ Three folders were recorded in SSICS as located somewhere other than
         WBFSO. As a result, requests from an SSA component would be directed to
         the records storage facility or field office identified in SSICS as housing the
         record, instead of WBFSO. Therefore, the initial request would be
         unsuccessful, and other actions would have to be initiated to locate the folder.
         This would delay the folder retrieval process or possibly result in a folder not
         being located.

       ¾ Three folders were recorded in SSICS as lost. These folders would not be
         delivered to an SSA user unless the user knew that Title XVI folders were
         stored at WBFSO and a request to the facility might result in a folder being
         located and delivered.

       ¾ One folder was recorded in SSICS as inactive. Folders stored at WBFSO
         that have had little movement, but do not qualify for destruction, are coded
         inactive and should be transferred to an FRC for storage. Similar to folders
         stored at another location, a request for this folder would be misdirected and
         delay the folders delivery.

•   Six folders were recorded in SSICS as destroyed. Although SSICS indicated that
    the folders should have been destroyed between 1993 and 2002, the folders were
    still being stored at WBFSO. The WBFSO contractor did not identify and destroy

5
 The President’s Management Agenda, Fiscal Year 2002, Executive Office of the President, Office of
Management and Budget, at 17-18.
Page 5 - The Commissioner

    folders that were scheduled for destruction. We estimate that approximately
    92,000 folders were stored at WBFSO that should have been destroyed. SSA
    estimated the storage cost for the 92,000 folders was about $13,400, annually.

FOLDERS HAD LOOSE CONTENTS

Our tests of the 300 folders selected from the physical inventory identified 106 folders
with loose contents. When the contents of folders are not properly secured, documents
could be separated from the folder and misfiled or lost. According to SSA personnel,
the WBFSO folders have loose contents because

•   SSA components send folders to WBFSO without properly securing documents in
    the folder and

•   SSA personnel loosely filed PE material in the case folders before the contractor’s
    current responsibility related to PE documents. 6

SSA personnel stated that the contractor was not required to secure loose documents
inside a folder. In fact, SSA explained that this practice would be time-consuming,
would increase the cost of the contract, and could result in material being misfiled within
the folder. At the time of our audit, SSA required that the contractor secure folders with
loose contents by rubber banding the outside of the folder before shipment.

SSA personnel stated that the SSA components shipping records to the WBFSO are
responsible for securing documents inside the folder. However, SSA could not provide
us with a policy that clearly defined who was responsible for securing documents in a
folder prior to shipping. In fact, we found that SSA’s policies and procedures do not
adequately address the responsibilities and procedures for securing a folder’s contents
prior to shipping. We believe SSA needs to establish procedures to safeguard the
contents of case folders prior to folder shipment.

Projecting this error to the universe of 4.6 million folders stored at the WBFSO, we
estimate over 1.6 million folders have loose contents.

POST-ENTITLEMENT DOCUMENTS WERE NOT INITIALLY FILED WITH THE
FOLDER

PE documents received daily from SSA were not filed with the recipient’s case folder
already stored at WBFSO. In fact, upon receipt at WBFSO, PE documents were sorted,
inventoried, packaged, and shipped to the FRC for storage. Over time, multiple PE
documents for individuals are sent to the FRC and stored in separate folders. When an
SSA component requests a folder, WBFSO requests PE documents from the FRC.
Upon receipt from FRC, WBFSO files PE documents with the folder, which is then sent

6
  For a description of the contractor’s responsibility related to PE documents, see the section of this report
titled “PE Documents Were Not Initially Filed With The Folder.”
Page 6 - The Commissioner

to the requestor. The process of retrieving and matching PE documents with a case
folder takes approximately 30 to 45 days.

The process of storing PE documents at the FRC began in 1995. At that time, other
tenants occupied the same building as WBFSO, and additional space was not available
to store PE documents. However, at the time of our audit, these tenants were no longer
located in the building, and SSA officials stated that space was available to store PE
documents.

We believe PE storage procedures were inefficient, costly, and delayed the delivery of
case folders to the requestor. At the time of our audit, SSA’s PE documents occupied
127,862 cubic feet of space at the Philadelphia FRC at a cost of $2.10 per cubic foot
per year. In Fiscal Year (FY) 2002, the WBFSO requested 705,088 PE folders from the
FRC and was charged $1.05 per PE folder retrieval. Accordingly, SSA spent over $1
million to retrieve, store, and ship PE documents in FY 2002 (see Table 1).

                            Table 1: Summary of PE Costs
                            Service                   Cost
                                                    (Actual)
                  FRC Retrieval Fees                     $740,342
                  FRC Storage Fees                         268,510
                  Shipping to/from FRC                      44,250
                                       Totals          $1,053,102

CONCLUSIONS AND RECOMMENDATIONS

As a result of the inventory problems, Title XVI disability folders may not be readily
available to SSA components to facilitate claims actions. The untimely retrieval of a
case folder delays claim actions, and lost folders require that SSA expend scarce
resources to locate or reconstruct folders. In the end, SSA’s customers are
inconvenienced or left skeptical about the Agency’s ability to safeguard important
documents. The records maintained at WBFSO are essential for SSA to make sound
decisions regarding beneficiary entitlements and to deliver world-class service.

Therefore, we recommend that SSA:

1. Determine the location of the five missing folders. If the folders cannot be located,
   determine the necessary corrective action that should be taken on these folders.

2. Perform a cost-benefit analysis on using a shipping service that tracks folders from
   the point of origin to the destination.

3. Adjust SSICS to indicate that the seven folders recorded as stored at a location
   other than WBFSO, lost, or inactive are at WBFSO.
Page 7 - The Commissioner

4. Destroy the six folders identified with expired destruction dates and remind the
   WBFSO contractor to follow the folder destruction schedule.

5. Establish procedures to safeguard the contents of case folders during the shipping
   process.

6. Determine whether filing PE documents at WBFSO would be cost beneficial and
   more efficient than the current practice of storing PE documents at the FRC.

AGENCY COMMENTS

In response to our draft report, SSA agreed with Recommendations 1, 3, 4 and 6. With
regards to Recommendation 2, SSA stated that the USPS has been a reliable shipper
and the annual tracking of over two million folders would be a monumental task that
would outweigh the benefit derived. In response to Recommendation 5, SSA stated
that it currently takes appropriate measures to secure case folders by placing them in
heavy-duty envelopes and sealed boxes during the shipping process. The full text of
SSA’s comments is included in Appendix B.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We recommended that SSA consider the use of a shipping service that tracks folders
because the current arrangements WBFSO has with the USPS does not include
tracking. Without this tracking capability, which is usually provided by commercial
shippers, SSA may not be able to locate folders lost during shipment. SSA’s National
Records Center in Kansas City, Missouri currently uses Federal Express for shipment
services and informed us that the tracking service has been beneficial to its operations
when a user claims that a folder was not received. We continue to believe that SSA
should evaluate the use of a shipping service that tracks WBFSO shipments.

SSA places the contents of case folders at risk of loss when the contents are loosely
filed. Once a folder leaves WBFSO’s possession, there is no guarantee that the user
will take the measures necessary to safeguard the folder’s loose contents. We
encourage SSA to establish procedures to safeguard the contents of folders throughout
the entire shipping process.




                                            James G. Huse, Jr.
                                Appendices
APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                        Appendix A
Sampling Methodology and Results
Methodology

Test of Electronic Inventory

To test the electronic inventory, we traced a statistical sample of 300 folders recorded in
SSICS as located in the WBFSO on December 5, 2002, to their physical location within
the facility.


                      Universe      Sample       Selection               Selection
Universe                Size         Size          Date                   Criteria
All Folders in        4,622,979      300          12/5/02                  SSN
SSICS coded L00

Test of Physical Inventory

To test the physical inventory, we traced a statistical sample of 300 case folders
physically located at the facility on December 3, 2002, to SSICS and FCS. Folders are
filed at WBFSO based on their terminal digits (the last four digits of a Social Security
number). To select the folders, we randomly selected 300 terminal digit numbers
between 0001 and 9999. For each randomly selected number, we chose the first folder
stored in this terminal digit range.


                       Universe  Sample          Selection             Selection
Universe                 Size     Size             Date                 Criteria
All Folders in         4,616,813   300            12/3/02          SSN Terminal Digits
SSICS coded L00

Since we did not manually count the inventory of folders on December 3, 2002, we
relied on the total number of folders identified in the computerized inventory on this date
as our universe.




                                           A-1
Sampling Methodology and Results (continued)

Results

Results from Test of the           Sample Projected Projection     Projection
Electronic Inventory               Error   Error      Lower Limit  Upper Limit
Not Found at WBFSO                       5     77,050       30,464      160,518



Results from Tests of the          Sample Projected Projection     Projection
Physical Inventory                 Error   Error      Lower Limit  Upper Limit
Recorded in SSICS as stored at           7    107,726       50,791      200,269
a location other than WBFSO,
lost, or inactive
Recorded as destroyed in SSICS            6       92,336          40,375     180,474
but still in WBFSO inventory
Folders with loose contents             106     1,631,274       1,419,702   1,852,897

All projections were made at the 90-percent confidence level.




                                          A-2
                  Appendix B
Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM                                                                         32281-24-977


Date:     September 4, 2003                                                  Refer To: S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry W. Dye     /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “Audit of the Wilkes-Barre Folder
:         Servicing Operation” (A-04-03-13040)—INFORMATION


          We appreciate the OIG's efforts in conducting this review. Our comments on the report
          content and recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Trudy Williams at extension 50380.

          Attachment:
          SSA Response




                                                      B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA)
ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “AUDIT OF THE WILKES-BARRE FOLDER SERVICING
OPERATION” (A-04-03-13040)


Thank you for the opportunity to review and comment on the subject draft report. Our response
to the specific recommendations is provided below.

The objective of the audit was to determine the accuracy and condition of the physical and
computerized inventory at the Wilkes-Barre Folder Servicing Operation (WBFSO).

The audit identified 1.7 percent of the folders recorded in Supplemental Security Income Control
System (SSICS) as stored at the WBFSO that could not be located at the facility.
Also, 2.3 percent of the folders were not properly recorded in SSICS as stored at the WBFSO
although they were located at the facility and 2 percent of the folders stored at the WBFSO
should have been destroyed.

Recommendation 1

SSA should determine the location of the five missing folders. If the folders cannot be located,
determine the necessary corrective action that should be taken on these folders.

SSA Comment

We agree. Three of the five missing folders are eligible for destruction and will be destroyed if
they are located. If the remaining two folders are located, we will receipt them into the SSICS to
establish the proper location. If the two folders cannot be located, we will reconstruct them, if
necessary. We anticipate completing this action by
October 15, 2003.

Recommendation 2

SSA should perform a cost-benefit analysis on using a shipping service that tracks folders from
the point of origin to the destination.

SSA Comment

We disagree. For years, SSA has used the USPS to send benefit checks, important notices, and
many other official documents. The USPS has proven to be a reliable shipper. Annually
tracking the movement of over two million folders to and from the WBFSO would be a
monumental task far outweighing any benefit derived.
OIG appears to make the assumption that discrepancies between SSICS records of folder
location in the FSO and the actual physical location not in the FSO arise from losses during
shipping. It is useful perhaps to distinguish between the tracking of folders individually (SSICS)
and the proposed tracking of shipments (boxes of folders). Folders slated for shipment can be



                                               B-2
(and sometimes are) removed before shipment and this action is then not accurately recorded in
SSICS. Tracking the box shipment would not remedy this situation.
Recommendation 3

SSA should adjust SSICS to indicate that the seven folders recorded as stored at a location other
than WBFSO, lost, or inactive are at WBFSO.

SSA Comment

We agree. SSICS has been updated to indicate the proper location of the folders.

Recommendation 4

SSA should destroy the six folders identified with expired destruction dates and remind the
WBFSO contractor to follow the folder destruction schedule.

SSA Comment

We agree. The six folders eligible for destruction were destroyed. We have reminded the
WBFSO contractor to follow the folder destruction schedule.

Recommendation 5

SSA should establish procedures to safeguard the contents of case folders during the shipping
process.

SSA Comment

We disagree. We believe the Agency already takes appropriate measure to secure case folders.
Folders are placed in heavy-duty envelopes or boxes that are securely sealed and therefore,
materials are not separated from folders during the shipping process.

Recommendation 6

SSA should determine whether filing PE documents at WBFSO would be cost beneficial and
more efficient than the current practice of storing PE documents at the Federal Record Center
(FRC).

SSA Comment

We agree. In August 2003, SSA’s Office of Central Operations began forming a workgroup to
develop storage options for the WBFSO. The workgroup will determine whether filing PE
documents at the WBFSO would be a viable option rather than the current practice of storing PE
documents at the FRC. The workgroup anticipates having the analysis of this recommendation
available by January 1, 2004.


                                               B-3
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City/Atlanta Audit Division (816) 936-5591

   Frank Nagy, Deputy Director, Atlanta Office (404) 562-5552

Staff Acknowledgments

In addition to those named above:

   Catherine Burnside, Senior Auditor

   Frank Trzaska, Senior Auditor

   David McGhee, Auditor

   Valerie Ledbetter, Auditor

   Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-03-13040
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
